No. _______
IN THE

Supreme Court of the United States
C ARLOS T ORRES ,
Petitioner,
vs.
U NITED S TATES

OF

A MERICA ,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE OF
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
AND FOR PETITION FOR WRIT OF CERTIORARI
Jon M. Sands
Federal Public Defender
District of Arizona
Jeremy Ryan Moore
Assistant Federal Public Defender
Counsel of Record
407 W. Congress Street, Suite 501
Tucson, Arizona 85701
ryan_moore@fd.org
(520) 879-7500
Counsel for Petitioner

I, Jeremy Ryan Moore, Assistant Federal Public Defender, District of Arizona,
Tucson, Arizona, hereby certify that all parties required to be served with the Motion
for Leave to Proceed In Forma Pauperis and Petition for Writ of Certiorari, filed
herewith, have been served as follows:
In accordance with Supreme Court Rule 12 and Rule 29.1, I caused the
original and ten (10) copies of these documents to be delivered via Federal Express
for delivery to the Clerk, Supreme Court of the United States, 1 First Street, N.E.
Washington, D.C., 20543, on March 9, 2021, for delivery on March 10, 2021.
In accordance with Supreme Court Rules 29.3 and 29.4, on the same date I
caused three (3) copies of these documents to be delivered in the same fashion, and
an electronic version of the documents to be transmitted, to the Solicitor General of
the United States, Room 5616, Department of Justice, 950 Pennsylvania Ave., N.W.,
Washington, DC 20530-0001.
RESPECTFULLY SUBMITTED this 9th day of March, 2021.
JON M. SANDS
Federal Public Defender
District of Arizona
s/Jeremy Ryan Moore
JEREMY RYAN MOORE
Assistant Federal Public Defender
407 West Congress Street, Suite 501
Tucson, Arizona 85701
Telephone: (520) 879-7500
Facsimile: (520) 879-7600
Counsel of Record for Petitioner

